     Department of Homeland Security

     ��������������������������


   FEMA Should Review the Eligibility of $523,007 of 

$5.4 Million in Public Assistance Grant Funds Awarded 

 to the Borough of Belmar, New Jersey, for Hurricane 

            Sandy Debris Removal Activities





OIG-14-72-D                                  April 2014

                                 OFFICE OF INSPECTOR GENF.RAL
                                     Depanmcnt of Homeland Security
                                      Wamlogmn, DC 20528 i www.oig.db•.guv



                                                APR 2 2 2Jl4

MEMORANDUM FOR:                     John Covell
                                    Director
                                    New Jersey Sandy Recovery Field Office
                                    Federal Emergency Management Agency

FROM :                              John V. Kei!V7:~~{8~--;;~
                                    Assistant In



SUBJECT:                             FEMA Should Review the Eligibility of $523,007 of
                                     $5.4 Million in Public Assistance Grant Funds Aworded to
                                     the Borough of Belmar, New Jersey, for Hurricane Sandy
                                     Debris Removal Activities
                                     FEMA Disaster Number 4086-DR-NJ
                                     Audit Report Number OIG-14-72-D

We audited Public Assistance grant funds awarded to the Borough of Belmar, New
Jersey, {Borough) for debris removal activities {FIPS Code 025-04930-00). Our audit
objective was to determine whet her t he Borough accounted for and e)(pended Federal
Emergency M anagement Agency (FEMA) grant funds according to Fed eral regulations
and FEMA guidelines. We conduct ed this audit early i n the Public Assistance process
with the goals of (1) providing applicants an opportunity as soon as possible after the
disaster event to locate documentation or corroborating evidence to support costs
claimed for disaster damages, and (2) mitigating the affect of fraud, waste, and abuse of
disaster assistance.

As of December 2, 2013, the cut-off date of our review, the Borough had received a
Public Assistance award of $20 million from the New Jersey Office of Emergency
Management Agency (State), a FEMA grantee, for damages resulting from Hurricane
Sandy, which made landfall on October 29, 2012. The awa rd provided 90 percent
f unding for debris removal activities; emergency protective measures; repairs to roads
and bridges; and repairs to buildings, equipment and other facilities. The award
consisted of eight large and three small projects.:




 Federal regula lion~ in effect at the time of Hurric~n(' Sa ndy set Lhe large project threshold ~t $67,500.
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   We audited one large project (Project 150) for debris removal activities with an award
   totaling $5.4 million. The audit covered the period from October 29, 2012, to
   December 2, 2013, during which the Borough received an advance payment of
   $2.0 million from the State. At the time of our audit, the Borough had completed work
   under the project, but had not submitted any claims for reimbursement of project
   expenditures to the State. The Borough provided us with a list of debris removal
   expenditures (force account and contract) totaling approximately $6.9 million that it
   planned to claim to the State under the award.2 We used this list of expenditures to
   conduct the audit.

   We conducted this performance audit between May 2013 and December 2013 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
   policies in effect at the time of the disaster.

   We judgmentally selected and reviewed project expenditures (generally based on dollar
   value) that the Borough provided; reviewed applicable documents that the Borough,
   State, and FEMA provided; interviewed Borough representatives, State, and FEMA
   officials; reviewed the Borough’s procurement policies and procedures; reviewed
   applicable Federal regulations and FEMA guidelines; and performed other procedures
   considered necessary to accomplish our audit objective. We also notified the Recovery
   Accountability and Transparency Board of all contracts the subgrantee awarded under
   the grant to determine whether the contractors were debarred or whether there were
   any indications of other issues related to those contractors that would indicate fraud,
   waste, or abuse. We did not assess the adequacy of the Borough’s internal controls
   applicable to its grant activities because it was not necessary to accomplish our audit
   objective. However, we gained an understanding of the Borough’s method of
   accounting for disaster-related costs and its policies and procedures for administering
   activities provided for under the FEMA award.


                                                BACKGROUND

   Hurricane Sandy severely affected the Borough when it made landfall on October 29,
   2012. The Borough received a $5.4 million award in FEMA Public Assistance grant funds

                                        

   2
       Forcefaccount refers to the Borough’s personnel and equipment. 


www.oig.dhs.gov                                          2                          OIG-14-72-D

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   for debris removal activities resulting from the disaster. In December 2012, the State
   authorized a $2.0 million advance payment under Immediate Needs Funding to assist
   the Borough with cash flow challenges.

   The Borough took full responsibility to manage and execute its debris removal operation
   using a combination of contractors and force account labor and equipment. The
   Borough initially awarded noncompetitive contracts to pump water from streets to
   allow for debris removal. It used local contractors and a State-approved contractor for
   the remainder of the debris removal activities. The Borough’s debris removal operation
   involved hauling more than 12,000 tons of debris from rights of way, local streets, and
   public areas. According to Borough personnel, the Borough completed all debris
   removal work in February 2013.


                                       RESULTS OF AUDIT

   The Borough accounted for FEMA funds on a project-by-project basis as Federal
   regulations and FEMA guidelines require. However, we identified $523,007 of debris
   removal costs that the Borough planned to claim under the FEMA award that either
   (1) did not comply with Federal procurement requirements, (2) were not eligible
   according to Federal regulations or FEMA guidelines, or (3) were not supported by
   adequate documentation.

   Finding A: Contracting Procedures

   The Borough did not comply with Federal procurement requirements when awarding
   two contracts totaling $1,608,376. Federal procurement standards at 44 Code of Federal
   Regulations (CFR) 13.36 required the Borough, among other things, to perform the
   following activities:

       •	 Conduct all procurement transactions in a manner providing full and open
          competition. Noncompetitive procurement is allowable under certain
          circumstances, one of which is when the public exigency or emergency will not
          permit a delay resulting from competitive solicitation. (44 CFR 13.36(c)(1) and
          44 CFR 13.36(d)(4)(i)(B))

       •	 Do not use prohibited cost-plus-a-percentage-of-cost and percentage-of-
          construction-cost methods of contracting. (44 CFR 13.36(f)(4)) 


       •	 Perform a cost or price analysis in connection with every procurement action,
          including contract modifications, to determine the reasonableness of the


www.oig.dhs.gov                                3	                                    OIG-14-72-D

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           proposed contract price. A cost analysis is performed when adequate price
           competition is lacking and for sole source procurements, unless price
           reasonableness can be established under certain conditions. (44 CFR 13.36(f)(1))

   In addition, FEMA’s PublicfAssistancefGuidef(FEMA 322, June 2007, pp. 51–53) specifies
   that contracts must be of reasonable cost, generally must be competitively bid, and
   must comply with Federal, State, and local procurement standards. FEMA may grant
   exceptions to Federal procurement requirements on a case-by-case basis and for
   subgrantees (44 CFR 13.6(c)).

   The Borough awarded two noncompetitive, cost-plus-percentage-of-cost contracts for
   debris removal totaling $1,608,376. The noncompetitive contracts largely included
   debris removal work the Borough completed under exigent circumstances. The
   emergency requirement to clear local streets, public areas, and rights of way justified
   the Borough’s use of noncompetitive contracts. However, Federal regulations prohibit
   the cost-plus-percentage-of-cost methodology. Such contracts provide no incentive for
   contractors to control costs—the more contractors charge, the more profit they make.
   Under the contracts in question, the primary contractor added markups of 15 percent
   for overhead and 10 percent for profit on billings for its own employees, and 5 percent
   for overhead and profit on pass-through costs of its subcontractors.

   Additionally, the Borough could not provide evidence that it conducted a cost or price
   analysis to determine the reasonableness of the contractors’ proposed prices. A cost or
   price analysis decreases the likelihood of unreasonably high or low prices, contractor
   misinterpretations, and errors in pricing relative to the scope of work.

   Because the contract work largely represented debris removal under exigent
   circumstances, we are not questioning the entire contract amounts. However, we do
   question the $285,054 of costs claimed as markups because (1) Federal procurement
   regulations prohibit the cost-plus-percentage-of-cost methodology of contracting, and
   (2) FEMA has no assurance that the Borough paid a fair and reasonable price for the
   contract work.

   Borough officials said that they were unaware that Federal procurement regulations
   prohibited cost-plus-percentage-of-cost contracts. They also said that the Borough took
   steps to ensure that the contractors’ rates were reasonable by having them charge rates
   and fees in accordance with New Jersey Department of Transportation standards and
   FEMA equipment rates.




www.oig.dhs.gov                                4                                     OIG-14-72-D

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Finding B: Ineligible Force Account Labor Costs

   The Borough’s project expenditures included $53,147 of ineligible force account labor
   costs. The ineligible expenditures included:

       •	 $12,781 of labor charges for emergency protective measures Borough
          employees undertook before the storm made landfall on October 29, 2012.
          These charges were ineligible because the project worksheet authorized debris
          removal activities only. However, FEMA authorized work classified as emergency
          protective measures under another FEMA project. Therefore, the Borough
          should submit these expenditures to the State for an eligibility determination
          under that project;

       •	 $15,015 of overtime labor for two salaried employees who were exempt from
          earning overtime pay; and

       •	 $25,351 of regular-time salaries and benefits beyond the allowable 30-day
          period. Normally, only force account overtime labor costs for debris removal
          work are eligible for reimbursement. However, FEMA Recovery Fact Sheet
          9580.215 (HurricanefSandy:fDebrisfRemovalfForcefAccountfLaborfCosts,
          November 5, 2012) states that FEMA will reimburse the straight- or regular-time
          salaries and benefits of an applicant’s permanently employed staff performing
          eligible debris-related work for a period not to exceed 30 consecutive calendar
          days. The applicant may choose one 30-day period of eligibility. According to the
          Borough’s Director of Finance, the Borough chose October 29, 2012, through
          November 27, 2012, as its 30-day period. However, the Borough’s claim included
          $25,351 of regular-time labor costs for staff that performed debris removal
          activities from November 28 through November 30, 2012, which was outside the
          eligible period.

   Borough officials agreed that the $12,781 of labor charges are not applicable to debris
   removal work and that they will claim the costs under the Borough’s project worksheet
   for emergency protective measures.

   Finding C: Supporting Documentation

   The Borough could not provide adequate documentation to support $184,806 of project
   expenditures. Federal cost principles at 2 CFR Part 225, Appendix A, Section C.1.j.,
   require grant recipients to adequately document costs under a Federal award. The
   unsupported expenditures included:


www.oig.dhs.gov                                5	                                   OIG-14-72-D

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



       •	 $175,223 for contracted hourly debris monitors that the Borough could not
          support with time sheets and pay rates to validate costs billed; and

       •	 $9,583 of tipping fee charges that the Borough could not support with landfill
          tickets. The Borough claimed tipping fees for disposing 12,286 tons of debris at a
          landfill. However, the landfill tickets supported only 12,168 tons of debris, a
          difference of 118 tons, or $9,583 (118 tons times $81.21 per ton).

   Borough officials said that the debris monitoring contractor filed for bankruptcy, and the
   new firm that purchased the business has not provided the Borough with access to
   certain records pertaining to the debris monitoring operation. The officials said that the
   Borough is in litigation on this matter.


                                     RECOMMENDATIONS

   We recommend that the Director, New Jersey Sandy Recovery Office:

   Recommendation #1: Disallow $285,054 (Federal share $256,549) of ineligible
   contracting costs that did not comply with Federal procurement standards unless FEMA
   grants an exception for all or parts of the costs as provided for in 44 CFR 13.6(c) and if
   FEMA determines the costs are reasonable pursuant to Section 705(c)(1) of the Robertf
   T.fStaffordfDisasterfRelieffandfEmergencyfAssistancefActf(finding A).

   Recommendation #2: Disallow $53,147 (Federal share $47,832) of ineligible force
   account labor costs unless the Borough provides evidence that the costs are eligible
   (finding B).

   Recommendation #3: Disallow $184,806 (Federal share $166,325) of unsupported costs
   unless the Borough provides additional documentation to support the costs (finding C).




www.oig.dhs.gov                                 6	                                     OIG-14-72-D

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


   We discussed the results of our audit with Borough, State, and FEMA officials during our
   audit. We also provided a draft report in advance to these officials and discussed it at
   the exit conference held on December 3, 2013. We incorporated Borough officials’
   comments, where appropriate, into the body of this report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include the contact information for responsible parties and any other supporting
   documentation necessary to inform us about the current status of the
   recommendations. Until we receive and evaluate your response, we will consider the
   recommendations open and unresolved.

   Consistent with our responsibility under the InspectorfGeneralfAct, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are David Kimble, Director; William Johnson, Audit
   Manager; Dennis Deely, Auditor-in-Charge; Barry Bruner, Auditor; and, Ashley Petaccio,
   Program Analyst.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   David Kimble, Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                               7                                     OIG-14-72-D

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                                                                                   Appendix
                                    Report Distribution

   Department of Homeland Security
   Secretary
   Chief of Staff
   Chief Financial Officer
   Under Secretary for Management
   Chief Privacy Officer
   Audit Liaison, DHS

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Regional Administrator, FEMA Region II
   Audit Liaison, FEMA Region II
   Audit Liaison, FEMA (Job Code G-13-036-EMO-FEMA)

   State
   State Coordination Officer, New Jersey State Police, Homeland Security Branch
   Executive Director, Governor’s Office of Recovery and Rebuilding, New Jersey
   New Jersey State Auditor
   Attorney General, New Jersey

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Recovery Accountability and Transparency Board
   Director, Investigations, Recovery Accountability and Transparency Board

   Subgrantee
   Mayor, Borough of Belmar, New Jersey
   Borough Administrator, Borough of Belmar, New Jersey
   Chief Financial Officer, Borough of Belmar, New Jersey




www.oig.dhs.gov                               8                                      OIG-14-72-D

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Congress
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform




www.oig.dhs.gov                            9                               OIG-14-72-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
